                     

 

 

                                 

 
                                    Non-Senior Staff Travel
                                    Oversight Needs
 
                                    Improvement
 

 

 




                                    Office of the Inspector General
                                    Final Audit Report, A-11-07
                                    March 30, 2012
            Smithsonian Institution

            Office of the Inspector General



  Date     March 30, 2012

    To 	   Albert Horvath, Under Secretary for Finance and Administration/Chief Financial Officer
           Richard Kurin, Under Secretary for History, Art, and Culture
           Eva Pell, Under Secretary for Science
           Claudine K. Brown, Assistant Secretary for Education and Access
           Virginia B. Clark, Director, Office of Advancement
           Evelyn Lieberman, Director of Communications and External Affairs
           Thomas Ott, President, Smithsonian Enterprises

    cc 	   Stacy Cavanagh, Senior Executive Officer, Under Secretary for Science
           Dianne Niedner, Senior Program Officer, Under Secretary for History, Art, and Culture
           Andrew Zino, Comptroller
           ~~
 From      Scott S. Dahl, Inspector General

Subject    Non-Senior Staff Travel Management Needs Improvement, Audit Number A-II-07


           Attached please find a copy of our final report titled Non-Senior Staff Travel Management
           Needs Improvement. We made three recommendations to strengthen adherence to the
           Smithsonian travel policy and procedures. We recommended that management (1)
           require that approvers resolve voucher problems through the traveler; (2) assess whether
           mandatory training is necessary for certain approvers; and (3) emphasize in writing the
           strict enforcement of the Smithsonian travel policy.

           Management concurred with our findings and recommendations and has proposed
           corrective actions that will resolve the recommendations.

           We appreciate the courtesy and cooperation of Smithsonian representatives during this
           audit.

           Please call Joan Mockeridge or Brian Lowe on 202.633.7050 if you have any questions.


           Attachment




            MRC524
            PO Box 37012
            Washington DC 20013 -7012
            202.633.7050 Telephone
            202.633.7079 Fax
            Smithsonian Institution
            Office of the Inspector General


In Brief                                Non-Senior Staff Travel Oversight Needs Improvement
                                        Report Number A-11-07, March 30, 2012

                                                                                                                             


Why We Did This Audit                   What We Found

The Office of the Inspector             In accordance with our audit objective, we determined that the Smithsonian
General (OIG) conducted this            generally used the OC reports to hold individual travelers accountable and
audit of non-senior staff travel        improve its travel management program. However, some underlying problems
based on earlier OIG reviews that       remain uncorrected.
found travel problems by some
senior Smithsonian management           In an effort to understand why voucher problems still exist, we examined the
and weaknesses in oversight of          voucher approval process. As a result of the problems we found, we identified
executive-level travel. Our             system process improvements that would result in more accountability. We
objective in the audit was to assess    found systemic problems with voucher approvals and oversight of approvers.
whether the Smithsonian used the        Based on our review of the OC reports and discussions with management, we
results of the OC Compliance            concluded that:
Review Reports of Non-Senior
Travel (OC reports) to hold                 	 Unit travel approvers often did not effectively review the vouchers and
individual travelers accountable               supporting documentation.
and to bring about improvement
in travel management.                       	 Supervisors often did not always effectively oversee approvers’ work.

Background                              Ineffective approvals and inadequate oversight of the travel process weaken
                                        internal controls and resulted in the Smithsonian reimbursing travelers for
Smithsonian researchers travel the      unauthorized expenses.
world to collect objects,
specimens, and data. Researchers
also present the results of their       What We Recommended
work at numerous conferences
and meetings in the United States       We recommended that the Under Secretary for Finance and Administration:
and foreign countries. In
addition, staff engage in                   	 Revise the Travel Handbook to require that when approvers find voucher
fundraising activities that require            problems, approvers resolve them by following up with the travelers and,
travel to meet with donors. As                 where necessary, the travelers’ supervisors.
such, travel at the Smithsonian is
critical to its mission of increasing       	 Direct the Comptroller to identify approvers who demonstrated a high
and diffusing knowledge. During                volume of problems during the OC compliance reviews, and identify
fiscal years 2008 to 2010,                     approvers with a high volume of trip reviews. Direct the Comptroller to
Smithsonian non-senior travelers               assess whether these groups of approvers require mandatory training.
from 56 units took 33,458 trips
totaling over $42 million.              We also recommended that the Under Secretary for Finance and Administration
                                        in coordination with the Smithsonian leadership team:

                                            	 Emphasize in writing that unit management needs to more strictly
                                               enforce the Smithsonian’s travel policy.

                                        Management concurred with our findings and recommendations and has
                                        proposed corrective actions that will resolve the recommendations.

                                        For additional information or a copy of the full report, contact the Office of the
                                        Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
INTRODUCTION

The Office of the Inspector General (OIG) conducted this audit of non-senior staff travel based
on earlier OIG reviews that found travel problems by some senior Smithsonian management and
weaknesses in oversight of executive-level travel. Following these reviews, Smithsonian
management implemented new procedures for monitoring senior and non-senior travelers,
including quarterly compliance reviews conducted by the Office of the Comptroller (OC).

Smithsonian management’s support of compliance with the travel policy and procedures assists
in managing its limited financial resources. Conversely, a lack of management emphasis on
compliance with travel policy and procedures may result in travel expense overpayments and
increased administrative costs in a time of decreasing budgets. Previous audits of senior travel at
the Smithsonian uncovered problems that not only resulted in increased costs, but also resulted
in unfavorable publicity for the Smithsonian.

Smithsonian researchers travel the world to collect objects, specimens, and data. Researchers also
present the results of their work at numerous conferences and meetings in the United States and
foreign countries. In addition, staff engage in fundraising activities that require travel to meet
with donors. As such, travel at the Smithsonian is critical to its mission of increasing and
diffusing knowledge.

Our objective in the audit was to assess whether the Smithsonian used the results of the OC
Compliance Review Reports of Non-Senior Travel (OC reports) to hold individual travelers
                                                                    1
accountable and to bring about improvement in travel management. Beyond assessing the OC
reports, we identified system process improvements that would result in more accountability. We
found systemic problems with voucher approvals and oversight of approvers that increase the
Smithsonian’s risk for overpayments of travel expenses.

We include a detailed description of our scope and methodology in Appendix A.

RESULTS IN BRIEF

We found that the Smithsonian generally used the results of the OC reports to hold individual
travelers accountable and to improve travel management. Nonetheless, despite these
improvements, we found that management needs to strengthen its travel management process,
specifically in the area of voucher approvals. Ineffective travel voucher approvals weaken the
Smithsonian travel program and increase the risk of travel expense overpayments. With
inadequate travel voucher reviews by approving officials at the unit level, the Smithsonian has
                                                                                           2
paid for unallowable expenses and reimbursed travelers for more than they were entitled.




1
  Non-senior level employees generally perform work at or below the scope and responsibility of the GS-15 or 

equivalent level. 

2
  However, when OC identified unauthorized reimbursements during their compliance reviews, they worked with 

the units to ensure the traveler reimbursed the Smithsonian, when appropriate.

During fiscal years (FY) 2008 to 2010, Smithsonian non-senior travelers from 56 units took
33,458 trips totaling over $42 million. For this same period, OC reviewed 51 units comprising a
sample of 450 vouchers3 with total costs of $1,585,057. We judgmentally selected 8 of the 51 units
and reviewed all 155 travel vouchers from these units totaling $857,763 (or 54 percent of the total
cost OC reviewed).

We verified the findings from the OC reports, which identified that the Smithsonian reimbursed
travelers for travel vouchers submitted without receipts and other supporting documentation.
We believe the Smithsonian could reduce these improper reimbursements by more effectively
monitoring some unit-level approval processes. Specifically, the OC reports and our interviews
disclosed that unit-level approvers’ reviews of travel vouchers did not always identify non-
compliance with the Smithsonian’s travel policy.

Managers informed us that some supervisors were not properly overseeing approvers. For
example, in one of the eight units we reviewed a manager stated that a supervisor told approvers
not to scrutinize vouchers too closely. The supervisors are another layer of protection to ensure
compliance with travel policy. If the Smithsonian does not effectively oversee travel approvers,
then problems, such as increased travel costs, will continue.

In this report we made three recommendations to strengthen travel management process. These
recommendations will reduce the risk of overpaying travelers by ensuring compliance with the
Smithsonian’s travel management directive. Management concurred with our findings and
recommendations and has proposed corrective actions that will resolve the recommendations.
Please refer to Appendix B for management’s complete response. We believe that by
implementing these recommendations, compliance with travel policy should improve.

BACKGROUND

Smithsonian Policy and Procedures

The Federal Travel Regulation (FTR) implements statutory requirements for travel by Federal
civilian employees and others authorized to travel at Government expense. Smithsonian Directive
(SD) 312, Travel, establishes travel policy for Smithsonian employees, associates, and invited
guests, and states that “Smithsonian travel policy and procedures conform to the FTR as issued
by the General Services Administration.”

According to SD 312, “The Directors of Museums, Research Centers, and Offices are responsible
for and accountable to the Under Secretary for Finance and Administration (USF&A) for
ensuring that their units comply with Smithsonian travel policies and procedures for all
employees within their organization.” OC, which reports to the USF&A and Chief Financial
Officer, is responsible for maintaining travel policy and procedures, as well as conducting reviews
of non-senior travel.

The Smithsonian Institution Travel Handbook (Handbook) supplements SD 312 by providing
specific procedures including processes unique to the Smithsonian’s operations. The Handbook
contains detailed information about travel authorizations, allowable travel expenses, travel
expense reimbursements, and post-payment travel voucher audits.


3
    Each voucher represents one trip.


                                                 2

Smithsonian Travel Process

In 2007, the Smithsonian began using the GovTrip web-based system, which provides travelers
with tools for travel planning and voucher filing. The system allows the Smithsonian to
electronically create and process travel authorizations and vouchers. These travel documents are
automatically routed to the appropriate person for approval. According to the Handbook,
travelers must use GovTrip to prepare travel authorizations and vouchers and to electronically
attach required supporting documentation.

Travel authorizations establish the destination, duration, and estimated cost of the trip. GovTrip
prompts the traveler to enter information such as the duration and points of travel, expected
expenses, and mode of travel. The travel authorization is then automatically routed to the
appropriate approving official (approver).

Travel vouchers and supporting documentation provide evidence to support the traveler’s claim
for reimbursement. The voucher reflects the authorized purpose, destination, duration, and cost
of travel. In accordance with the Handbook, travelers have 5 working days after returning from
the trip to submit their travel voucher, which includes an itemized list of expenses incurred.
GovTrip routes the travel voucher to the appropriate official for approval.




OC Compliance Review Reports

OC implemented a non-senior travel voucher review process in January 2009. Under this process,
OC reviewed vouchers and assessed unit compliance with Smithsonian procedures to highlight
the areas needing improvement. OC first selects a judgmental sample of vouchers and reviews for
compliance with Smithsonian travel policy, issues a report to the units, and then follows up with
the units to improve compliance. OC selects units on a rotating basis to obtain maximum
coverage across the Smithsonian. This method allows OC to cover all units within a 3 year period.




                                                 3

As a result of these reviews, OC issues reports to the units identifying compliance-related matters
such as inadequate documentation, signed vouchers not electronically attached to vouchers, the
use of actual expenses without justification, and travelers not using the government charge card.
OC instructs the units to correct the deficient vouchers and report the action taken back to OC.

New OC Travel Review Process

On June 1, 2011, after we began our audit, OC implemented a change to the travel review process
as described above. OC now tracks responses and may suspend travel privileges for any traveler
with payment errors not addressed within 20 business days from the distribution date of the OC
report. However, we believe the implementation of this new process does not affect our
conclusions, findings, or recommendations. While this change appears to provide greater
accountability for individual travelers, it does not address the approval of vouchers or oversight
of the approvers.

RESULTS OF AUDIT

In accordance with our audit objective, we determined that the Smithsonian generally used the
OC reports to hold individual travelers accountable and improve its travel management program.
These reviews improved oversight of travelers for those units included in the reports. However,
some underlying problems remain uncorrected.

In an effort to understand why voucher problems still exist, we examined the voucher approval
process. As a result of the problems we found, we identified system process improvements that
would result in more accountability. We found systemic problems with voucher approvers and
oversight of approvers. Based on our review of the OC reports and discussions with management,
we concluded that:

   	 Unit travel approvers often did not effectively review the vouchers and supporting 

      documentation. 


   	 Supervisors often did not effectively oversee approvers’ work.

Ineffective approvals and inadequate oversight of the travel process weaken internal controls and
resulted in the Smithsonian reimbursing travelers for unsupported expenses.

Travel Management Processes Need to be Strengthened

OC Reports Result In Fewer Travel Voucher Problems

Smithsonian management implemented quarterly compliance reviews conducted by OC. As a
result of these reviews, OC issued compliance reports alerting unit management of problems with
travelers not following Smithsonian travel procedures. The Smithsonian used the OC report
results to hold individual travelers accountable and to improve travel management at the
Smithsonian. For example, between FY 2008 to FY 2010, OC identified 12 vouchers which
included $3,642 of overpayment to travelers. The units used the reports to obtain
reimbursements from these travelers. As shown in Chart 1 below, travel management has
improved as a result of the OC reports as the number of travel problems identified by OC
decreased by more than half from FY 2008 to FY 2010.



                                                 4

                             Chart 1: Decrease in Non-Compliance Problems Reported by OC
                   100
                                 77
                                                                            64
  Non-Compliance

                   80                                 60                                61
                                                                57
    Number of



                                          48                                                     51
     Problems


                   60
                                                                                                          29      27
                   40
                   20
                    0
                            FY08        FY08         FY09       FY09      FY09      FY10       FY10     FY10     FY10
                         Qtrs . 1 & 2 Qtrs. 3 & 4 Qtrs. 1 & 2   Qtr. 3    Qtr. 4    Qtr. 1     Qtr. 2   Qtr. 3   Qtr. 4
                                                                     OC Report Period



However, there was one unit that did not improve during this period – the Smithsonian
Astrophysical Observatory (SAO). For purposes of Chart 1 above, we excluded the results of OC’s
two quarterly reviews of SAO because the results run counter to the overall trend. We show the
SAO results in a separate chart below.

At the time of our audit, OC had completed three reports of SAO’s travel. The first two OC
reports covered the 1st and 2nd quarters of FY 2008 activity and the 4th quarter of FY 2009. These
first two OC reports showed continuing travel documentation problems. OC reviewed 10
vouchers in FY 2008 and 15 vouchers in FY 2009. Between FY 2008 to 2009, non-compliance
problems increased by 118 percent. The average number of problems increased from 1.7 to 2.5
per voucher. Based on our discussions with OC and SAO management, our review of the OC
reports, and correspondence between OC and SAO, we observed that SAO responded to 1 of 15
problem vouchers identified in the reports. However, in the OC report of FY 2008 activity, OC
did not require the units to make corrections to the vouchers.

To reduce persistent problems with travel compliance, such as at SAO, OC implemented a new
procedure in June 2011, as we described earlier. As a result of these new procedures, OC
management stated that SAO has addressed all non-compliance problems identified by OC’s
third report, for the third quarter of FY 2011.

                                      Chart 2: Non-Compliance Problems at SAO
                                                                                                   37
                   40
                   35
  Non-Compliance




                   30
    Number of

     Problems




                   25
                                                 17
                   20
                   15
                   10
                    5
                    0
                                      FY2008 Qtrs 1 and 2                                    FY2009 Qtr. 4

                                                                  OC Report Period




                                                                          5

OIG Analysis of Voucher Problems Identified by OC Reports

Although the OC reports resulted in some overall improvements in compliance with travel
policy, problems still exist. OC reviewed 51 units comprising a sample of 450 vouchers with costs
totaling $1,585,057, for the period FY 2008 through 2010. We judgmentally selected 8 of the 51
units and reviewed all 155 travel vouchers from these units totaling $857,763 (or 54 percent).

As illustrated in Table 1, our sample disclosed that 115 of the 155 vouchers (or 74 percent) had
one or more of the following problems: inadequate documentation, the use of actual expenses
without justification, signed vouchers not electronically attached, employees not using
government charge card, and other problems. We also found that the travelers submitted 99 of
the 155 vouchers (or 64 percent) late.

                                               TABLE 1 

                   Detail of Non-Compliant Vouchers from our Sample of Eight Units 

                             (Each voucher may have more than one problem) 

       Total
       Non-
     Compliant
              4
     Vouchers                                          Problems Observed
                                                                                  Employees Not
                                              Actual          Signed Travel
                                                                                     Using
                      Inadequate             expenses         Voucher Not                                     5
                                                                                   Government         Other
         115         Documentation           without          Electronically
                                                                                   Charge Card
                                           justification        Attached
                             89                  23                 29                   16              82

Inadequate Documentation - We found that travelers for 89 of the 155 vouchers (or 57 percent)
reviewed did not include adequate documentation in GovTrip to support their claimed expenses.
For example, we found 20 of the 89 vouchers (or 22 percent) in which the travelers had not
uploaded supporting documentation in GovTrip for airfares totaling $32,972. Approving officials
had examined and approved these claims for reimbursement without required receipts. There
were also two other vouchers in which travelers had not documented field expenses6 totaling
$10,036. The Smithsonian reimbursed $9,856 in undocumented field expenses, to one of these
travelers.

The Handbook (section 3.3.6) requires that the traveler provide documentation by electronically
attaching copies of the following items to the GovTrip voucher:

           (a) the pen-and-ink signed voucher, if the traveler does not sign it electronically; (b) if
           travel to a conference, the conference description which shows the dates, purpose, fees
           and meals provided; (c) the ticketed transportation invoice showing the commercial
           carrier name, fare code and charges; (d) any vehicle rental receipt; (e) any lodging
           receipts; and (f) the receipt for any single expense over $75.



4
    Many vouchers had multiple problems; therefore, our tally will not equal 115. 

5
    These are miscellaneous issues that we considered minor, such as city or state tax exemption not claimed.

6
    A traveler working in the field may incur field expenses, such as a translator or earth moving equipment rental.



                                                            6

Appendix 3 of the Handbook states that if travel includes field expenses, the traveler must include
them in the authorization and voucher with proper documentation and accounting.

Actual Expenses Claimed Without Justification or Pre-approval - Travelers claimed actual
expenses without justification and pre-approval on 23 out of 155 vouchers (or 15 percent). For
these 23 vouchers, 15 travelers exceeded per diem by a total of $4,434. Although use of actual
expenses may have been justified, there were no justifications or pre-approvals of these travel
expenses on the vouchers.

The Handbook (section 4.1.6) states that the Smithsonian allows the claiming of actual meal or
lodging expenses that exceed per diem but they must be pre-approved in the authorization and
thoroughly explained and justified in the GovTrip record using either an attached document or
the Trip Details box.

Signed Travel Vouchers Not Electronically Attached in GovTrip - We found 29 of 155 vouchers
(or 19 percent), totaling $182,462, in which travel preparers electronically submitted and signed
the vouchers for the travelers. However, the travelers did not electronically attach a signed paper
copy. In addition, the approvers did not ensure that the travelers electronically attached a signed
voucher in GovTrip.

The Handbook (section 3.3.2) states that each traveler, whether staff or invitational, must sign a
travel voucher. If the traveler does not electronically sign the voucher in GovTrip, the traveler
must sign a printed copy of the voucher and electronically attach it to the GovTrip record.
A traveler’s signature on the voucher, either electronic or pen-and-ink, is important because the
traveler certifies that all travel and reimbursable claims were incurred on official Smithsonian
business and that the traveler has reviewed the voucher and certifies it to be correct. Travelers
who prepare their own vouchers in GovTrip and sign their vouchers electronically do not have to
attach a pen-and-ink signed voucher. However, when a travel preparer signs a voucher
electronically on behalf of the traveler, in accordance with section 3.2.10 of the Smithsonian’s
Travel Handbook, the traveler must electronically attach a signed copy of their pen-and-ink
signed voucher in GovTrip. If the traveler signed the voucher, but did not electronically attach it
in GovTrip, the approver should not have approved the voucher.

Employees Did Not Always Use Government Charge Cards - We identified 16 vouchers (or 10
percent) totaling $100,830, in which employees, who had government charge cards, did not use
them as required. Some of these employees used their personal charge cards instead of the
government charge card, which decreases transparency by reducing the Smithsonian’s ability to
detect inappropriate spending.

The Handbook (section 3.5.1) states that each Smithsonian employee with a government issued
charge card is required to use it for all authorized expenses incurred while in travel status.

Travel Vouchers Submitted Late - We found 99 of 155 vouchers (or 64 percent) in which
travelers submitted their vouchers late. Of those 99 vouchers, there were 72 vouchers in which
travelers submitted the vouchers up to 30 days late, 19 vouchers were 31 to 90 days late, and 8
vouchers were over 90 days late. One traveler in the last group submitted a voucher 457 days late.




                                                 7

                                           Chart 3: Late Submission of Travel Vouchers
                          80                          72
                          70
     Number of Vouchers

                          60      56
                          50
                          40
                          30                                                  19
                          20
                                                                                              8
                          10
                           0
                               Compliant         1-30 Days Late        31-90 Days Late   >90 Days Late
                                                        Number of Days Late


The Handbook (section 3.3.1) states that employees must submit their travel claims within 5
working days after the completion of their trip, or every 30 days if continuous travel is involved.
The longer the traveler delays submitting their travel voucher, the greater the risks that the
traveler will lose receipts and forget details of their trip. Furthermore, until the traveler is
reimbursed, the traveler will have to use their own funds to pay their government charge card
bill.

Ineffective Travel Voucher Approval and Oversight

The persistent problems noted above could have been reduced if the travel voucher approval
process functioned properly. There are two reasons why the approval process was ineffective:
first, the voucher approvers are not effectively detecting the problems and resolving them with
the travelers; and second, the oversight of the approvers has been weak.

Approvers - We concluded that approvers failed to adequately review these vouchers to identify
the obvious errors, and the approvers did not effectively resolve the problems by following up to
ensure compliance with the travel policy. Smithsonian management told us that the approvers
were not always effectively detecting errors because approving travel vouchers was not a high
priority for many unit approvers. Management told us that some individuals assigned to be
approvers were not interested in fulfilling that role, and some were too busy with other duties to
focus on approving travel vouchers. For example, management officials told us that there were
instances where approvers simply “pushed the button” in GovTrip to authorize the voucher, with
no review at all. In addition to voucher approval not being a high priority, Smithsonian
management has not required approvers to attend mandatory voucher approval training.

Oversight - Smithsonian management explained that some supervisors did not adequately
manage their subordinate approvers on their compliance with the travel policy and procedures.
One of the eight managers we interviewed gave us an example of a prior supervisor who told two
current approvers not to scrutinize vouchers too closely. Approval problems could be reduced if
supervisors held approvers accountable for travel voucher problems.

In addition, in 2008, a consultant advised the Board of Regents that senior management needed
to strongly emphasize travel policy enforcement to unit managers. We agree that unit managers’
enforcement of travel policy is critical to strengthen the internal control environment and to
reduce the risk of improper payments and excessive travel costs.




                                                              8
Impact of Ineffective Travel Review Process

Ineffective travel voucher approvals weaken the Smithsonian travel program and increase the risk
of overpaying travel expenses. Without adequate travel voucher reviews by approving officials at
the unit level, the Smithsonian has paid for unallowable expenses and reimbursed travelers for
more than they were entitled. Ineffective approvals could also subject travelers to unanticipated
tax consequences if the reimbursed expenses were not business-related or were not adequately
documented. Internal Revenue Service rules state that travelers must adequately account for
expenses incurred including documentary evidence such as receipts. If these rules are not met,
travelers are subject to tax consequences and OC would have to issue adjusted wage and tax
statements (W-2).

Recommendations:

To strengthen adherence to the travel policy and procedures, we recommend that the Under
Secretary for Finance and Administration:

    1. Revise the Travel Handbook to require that approvers resolve voucher problems, by
       following up with the travelers and, where necessary, the travelers’ supervisors.

    2. Direct the Comptroller to identify approvers who demonstrated a high volume of
       problems during the OC compliance reviews, and identify approvers with a high volume
       of trip reviews. Direct the Comptroller to assess whether these groups of approvers
       require mandatory training.

We also recommend that the Under Secretary for Finance and Administration in coordination
with the Smithsonian leadership team:7

    3. Emphasize in writing that unit management needs to more strictly enforce the
       Smithsonian’s travel policy.




7
 This team includes the following positions: Assistant Secretary for Education and Access, Under Secretary for
Science, Under Secretary for History, Art, and Culture, the Director of the Office of Advancement, the Director of
Communications and External Affairs, and the President of Smithsonian Enterprises.


                                                          9
APPENDIX A. SCOPE AND METHODOLOGY

The objective of this audit was to determine whether the Smithsonian is using the results of the
Office of the Comptroller’s Smithsonian Institution Non-Senior Travel Compliance Review
Reports to hold individual travelers accountable and to bring about improvement in travel
management.

To accomplish our objectives, we interviewed the staff from the Smithsonian’s Under Secretary of
Science, the Under Secretary of Art, History and Culture and Under Secretary of Finance and
Administration as well as staff from the Office of the Chief Financial Officer, and Office of the
Comptroller. In addition, we interviewed management and staff from eight judgmentally selected
Smithsonian units: National Museum of American History, National Air and Space Museum,
National Zoological Park, National Museum of the American Indian, National Museum of
Natural History, Hirshhorn Museum and Sculpture Garden, Smithsonian Astrophysical
Observatory, Freer Gallery of Art and Arthur M. Sackler Gallery.
To evaluate the Comptroller’s travel review process, we reviewed the Smithsonian’s statements
and guidance on travel that covered the period of our audit, including Smithsonian Directive
103, Standards of Conduct; Smithsonian Directive 312, Travel; the Handbook and the FTR. We
also reviewed and analyzed the Comptroller’s Reviews of Non-Senior Travel for FYs 2008-2010.
We reviewed a judgmental sample of vouchers from eight units. Because we selected a
judgmental sample, we cannot project the results of our review to the universe of vouchers.
Our audit assessed travel between FY 2008 through FY 2010. We reviewed and evaluated
Smithsonian policy and procedures, FTR, and the OC compliance review reports. Total non-
senior travel costs for FY 2008-FY 2010 was over $42 million and OC reviewed vouchers totaling
$1,585,057.
                                                  TABLE 2 

                                  Travel Vouchers Reviewed by OC and OIG 

                                            (FY 2008 to FY 2010) 

                 Vouchers         Total Instances         Vouchers Reviewed
    Fiscal       Reviewed            of Non-             by OC and Validated             Non-Compliant
     Year         by OC            Compliance                  by OIG                      Vouchers
   2008            100                  142                      45                           32
   2009            150                  218                      75                           64
   2010            200                  168                      35                           19
   Totals          450                  528                      155                          115
 In April 2009, the OC increased its scrutiny of travel by reviewing 50 vouchers from each quarter rather than 50

 vouchers from two quarters.


We conducted this performance audit in Washington, D.C. and Arlington, VA, from April
through November 2011, in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence we obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                                             A-1 

APPENDIX B. MANAGEMENT’S RESPONSE 




      o           Smithsonian Institution
                 Office of the Unde r Secretary for Fi nam;:e and Administration




         Date    March 20 , 20 12

           To    Scott Dahl, Inspector Genera l
                 Joan Mockeridge, Assistant Inspector General

         From    Albert Horvath, U nder Secretary for Finance & Administration/ChiefFinan cial Officer       V
                 Richard Kurin, Under Secretary for History, Art, and Culture
                 Eva Pell, Und er Secretary for Scien ce
                 Clau dine K. Brown, Assistant Secretary for Education and Access
                 Virginia B. Clark, Director, Office of Advancement
                 Evelyn Lieberman, Director of Communications and External Affairs
                 Thomas Ott, President, Smithso nian Enterprises

                 Stacy Cavanaugh, Senior Executive Officer, Under Secreta ry for Scien ce
            "    Dianne N iedner, Senior Program O ffi cer, Under Secretary for History, Art, and C ulture
                 Andy Zino, Comptroller


       Subject   Response to Draft Report on the Audit of Non-Senior Staff Travel, Number A-I I -07


                 Thank you for the opportunity to review and respond to the draft report o n the audit of
                 the n on-senior staff travel. The following co mments address the recommendations mad e
                 in the Office of Inspector General (OIG) report.


                 Recommendations to the Under Secretary for Finance and Administration:

                 Recommendation 1:
                 Revise the Travel Handbook to require that when approvers find voucher problems the
                 approvers resolve them by following up with the travelers and, when necessary, the travelers'
                 supervisors.

                 Response:
                 Concur. T he Under Sec retary for Finance and Administration will di rect the Comptroller
                 to revise the T ravel Handbook to includ e the follow-up procedures noted by the
                 In spector General for the approvers and their supervisors.

                 Anticipated completio n date: May I, 2012.

                 Recommendation 2:
                 Direct the Comptroller to identify app rovers who demonstrated a high volume of problems
                 during the OC compliance reviews. and identify approvers with a high volume of reviews.
                 Direct the Comptroller to assess whether these groups of approvers require mandatory
                 training.

                 Smithsonian Institution Building
                 1000 Jefferson Drive sw
                 Washington DC 2056<H)()16
                 202.633.5241 Telephone
                 202.633.0179 Fax




                                                                     B-1

APPENDIX B. MANAGEMENT’S RESPONSE (continued)




            Response:
            Concur. The Comptroller, going forward, will identify approvers with a high volume of
            reviews, including approvers with a high volume of problems noted during the OC
            compliance reviews, and assess the need for mandatory training of these individuals.

            Anticipated completion date: On-going - 1st report due at the end of FY 2012, 3rd
            quarter.

            Recommendations to the Under Secretary for Finance and Administration in
            Coordination with the Smithsonian Leadership Team:

            Recommendation 3:
            We also recommend that the Under Secretary for Finance and Administration in
            coordination with the Smithsonian leadership team emphasize in writing that unit
            management needs to more strictly enforce the Smithsonian's travel policy.

             Response:
            Concur. The Under Secretary for Finance and Administration, in coo rdination with the
            Smithsonian leadership team, will periodically (i.e. at least every six months) and through
            Institution -wide communication, remind all Sm ithsonian staff of the importance of
            complying with all travel policies.

            Anticipated completi on date: On-going - I st notification during FY 2012, 3rd quarter.




                                                                                                      2




                                                    B-2

APPENDIX C. CONTRIBUTORS TO REPORT

The following individuals from the Smithsonian Office of the Inspector General contributed to
this report:

Joan Mockeridge, Acting Assistant Inspector General for Audits
Brian Lowe, Supervisory Auditor
Steven Townsend, Auditor
Mark McBride, Auditor




                                              C-1

